APPENDIX A

HP LexisNexis'
No Shepard's Signal™
As of: August 31, 2021 3:48 PM Z

Webster v. Dauffenbach
United States Court of Appeals for the Tenth Circuit
May 20, 2021, Filed
No. 21-1048
Reporter

2021 U.S. App. LEXIS 15073 *; _ Fed. Appx.

2021 WL 2022104

RONALD WEBSTER, Petitioner - Appellant, v. SCOTT DAUFFENBACH, Warden; COLORADO
ATTORNEY GENERAL, THE ATTORNEY GENERAL OF THE STATE OF COLORADO,
Respondents - Appellees.
Notice: PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1
GOVERNING THE CITATION TO UNPUBLISHED OPINIONS.
Prior History: [*1] (D.C. No. 1:19-CV-03475-RM). (D. Colo.).

Core Terms
ineffective assistance, appellate counsel, district court, defaulted, interview
Counsel: RONALD WEBSTER, Petitioner - Appellant, Pro se, Canon City, CO.
For SCOTT DAUFFENBACH, Warden, COLORADO ATTORNEY GENERAL, THE ATTORNEY
GENERAL OF THE STATE OF COLORADO, Respondents - Appellees: Christine Cates Brady, Esq.,
Office of the Attorney General for the State of Colorado, Denver, CO.
Judges: Before MATHESON, BRISCOE, and PHILLIPS, Circuit Judges.
Opinion by: Mary Beck Briscoe

Opinion

ORDER DENYING CERTIFICATE OF APPEALABILITY*

‘This order is not binding precedent except under the doctrines of law of the case, res judicata, and collateral estoppel. It may be cited,
however, for its persuasive value consistent with Fed. R. App. P. 32.1 and 10th Cir. R. 32.1.

Yvette Brown

Webster v. Dauffenbach
Petitioner Ronald Webster, a Colorado state prisoner, seeks a certificate of appealability (COA) to
challenge the district court's denial of his petition for a writ of habeas corpus under 28 U.S.C. .ft 2254.
Because Webster has failed to satisfy the standards for issuance of a COA, we deny his request and
dismiss this matter.

I
In 2011, Webster was convicted by a jury in Colorado state court of one count of sexual assault on a child,
one count of sexual assault on a child-pattern of abuse, two counts of contributing to the delinquency of a
minor, and one count of distribution of a controlled substance. Webster was sentenced to a term of
imprisonment of 24 years to life. On direct appeal, the Colorado Court of Appeals (CCA) affirmed
Webster's conviction. The Colorado [*2] Supreme Court denied certiorari.
Webster filed a postconviction motion under Colorado Rule of Criminal Procedure 35(c). which was
denied by a Colorado state court in 2015. The CCA affirmed on October 25, 2018, and the Colorado
Supreme Court denied certiorari on June 3, 2019.
Webster filed the £ 2254 petition at issue here on December 9, 2019, raising the following claims:
1(a). Ineffective assistance of trial counsel for failing to use experts in DNA analysis and child
forensic interviewing, and for failing to object to the district court's ruling allowing unfettered jury
access to an audiotape interview.1
1(b). Ineffective assistance of appellate counsel for failing to raise the issues of a DNA confrontation
violation and admission of res gestae evidence.
2(a). The trial court erred by giving improper responses to jury questions suggesting it was having
trouble reaching a unanimous verdict, in violation of due process, a fair trial, and the right to an
impartial jury.
2(b). Ineffective assistance of trial counsel based on the trial-court error as alleged in claim 2(a).
On June 22, 2020, the district court dismissed with prejudice Webster's 1(b) claims for ineffective
assistance of appellate counsel because the claims were procedurally defaulted [*3] in state court. The
district court pointed to the CCA's decision not to consider Webster's claims of ineffective assistance of
appellate counsel because he raised them for the first time on appeal of his Rule 35(c) motion. That
decision, the district court concluded, was an independent and adequate state procedural ground that
barred federal habeas relief.
The district court later denied claims 1 (a), 2(a), and 2(b) on the merits on January 19,2021. Webster seeks
a COA only to appeal the June 22, 2020 order dismissing the 1(b) claims as procedurally defaulted.

1 This latter claim was initially raised by Webster as one for ineffective assistance of both trial and appellate counsel. See ROA at 15. The
State and the district court initially characterized it as a claim related only to appellate counsel. See ROA at 32 (State Pre-Answer Response to
Habeas Petition), Dist. Ct. Order for Answer in Part, Dismissal in Part, And State Court Record, ECF No. 17, at 1-2 (June 22, 2020). But
upon the State's recognition that the claim was properly brought against trial counsel—which went unchallenged by Webster—the district
court characterized this claim as one for ineffective assistance of trial counsel when it ruled on the merits of the ^ 2254 petition. See ROA at
308 (State Answer to Petition), 359 (District Court Order). As explained more below, this did not "open the door" to the merits of considering
his other claims of ineffective assistance of appellate counsel, as Webster contends. Aplt. Combined Op. Brief and App. for COA at 17.

Yvette Brown

Page 2 of 19

Webster v. Dauffenbach
II
To appeal the district court's order dismissing certain claims in his ft 2254 petition, Webster must first
obtain a COA. 28 U.S.C. ft 2253(c)(1)(A). Because the district court dismissed Webster's claims on
procedural grounds, Webster must show both "that jurists of reason would find it debatable whether the
petition states a valid claim of the denial of a constitutional right and that jurists of reason would find it
debatable whether the district court was correct in its procedural ruling." Slack v. McDaniel 529 U.S. 473.
484, 120 S. Ct. 1595. 146 L. Ed. 2d 542 (2000). Because Webster is proceeding pro se, we construe his
filings liberally, "but our role is not to act as his advocate." Gallagher v. Shelton, 587 F.3d 1063, 1067
(loth Cir. 2009).
Webster first argues that he properly presented his ineffective [*4] assistance of appellate counsel claims
to the Colorado courts. He acknowledges that he initially presented these claims as abuses of discretion by
the trial court but maintains that "every single one of these errors were attributable first to appellate
counsel’s failure to raise them on appeal." Aplt. Br. at 16. In his view, to conclude that he did not fairly
present these claims to the Colorado courts is "to construe ... form over substance." Id. We disagree. The
CCA concluded that the ineffective assistance of appellate counsel claims that Webster did raise in his
Rule 35(c) motion differed from those he raised on appeal of that motion:
In his postconviction motion, Webster asserted that appellate counsel was ineffective for failing to
raise trial counsel’s ineffectiveness; specifically, trial counsel's (1) being subject to a conflict of
interest because his wife worked for the public defender's office; (2) failing to interview and endorse
key witnesses; (3) failing to consult with or call to testify at trial a forensic child interview expert or a
DNA expert. In that motion, he also raised, under the heading of abuse of the trial court’s discretion,
the trial court's alleged evidentiary errors [*5J in admitting the DNA and res gestae evidence and in
allowing access to the recording. But he did not argue that these were issues that appellate counsel
should have raised on appeal. He now asserts that we should liberally construe his motion to include
the errors he now raises as ineffective assistance claims in his postconviction appeal. We decline to do
so.
ROA at 252.
As the CCA highlighted, "abuse of the trial court's discretion in deciding evidentiary issues and appellate
counsel's failure to raise those alleged errors on direct appeal are two distinct issues." Id. at 253. The CCA
therefore declined to consider those claims that Webster raised for the first time on appeal. The CCA’s
rule that it will not consider issues raised for the first time on appeal is an independent and adequate state
procedural bar. Hickman v. Spears, 160 F.3d 1269, 1271 (IOth Cir. 1998) ("A state procedural ground is
independent if it relies on state law, rather than federal law, as the basis for the decision. For the state
ground to be adequate, it must be strictly or regularly followed and applied evenhandedly to all similar
claims." (quotations and citations omitted)); People v. Goldman. 923 P.2cl 374, 375 (Colo. App. 1996)
("Allegations not raised in a [Ridel 35(c) motion or during the hearing on that motion and thus [*6] not
ruled on by the trial court are not properly before this court for review."); People v. Stovall, 284 P.3d 151,
153, 2012 COA 7M, 2012 COA 7M-2 (Colo. App. 2012) (applying Goldman and declining to consider
claims not raised in Rule 35(c) motion before the trial court); People v. Chipman, 370 P,3d 330, 335, 2015
COA 142 (Colo, App, 2015) (same). We therefore conclude that reasonable jurists could not debate
whether the district court's procedural ruling on that ground was correct.
Yvette Brown

Page 3 of 19

Webster v. Dauffenbach
Webster next contends that when the district court later considered his claim regarding the jury access to
an audiotape interview, it opened the door to consider his procedurally defaulted claims relating to "DNA
confrontation and res gestae" evidence. But upon our review of the record, it is clear that the district court
only considered the audiotape interview claim after the state highlighted—and Webster did not
challenge—that it was more properly understood as a claim for ineffective assistance of trial counsel, not
appellate counsel. See ROA at 308 (State Answer to Petition), 359 (District Court Order). The district
court considered that claim, even though it was procedurally defaulted, pursuant to the Supreme Court's
decision in Martinez v. Ryan. In that decision, the Supreme Court held that "[w]here, under state law,
claims of ineffective assistance of trial [*7] counsel must be raised in an initial-review collateral
proceeding, a procedural default will not bar a federal habeas court from hearing a substantial claim of
ineffective assistance at trial if, in the initial-review collateral proceeding, there was no counsel or counsel
in that proceeding was ineffective." 566 U.S. 1, 17, 132 S. Cl. 1309, 182 L, Ed, 2d 272 (2012). But
"Martinez applies only to 'a prisoner's procedural default of a claim of ineffective assistance at trial, not
to claims of deficient performance by appellate counsel. Banks v. Workman. 692 F.3d 1133, 1148 (10th
Cir. 2012) (quoting Martinez. 566 U.S. at 9). Therefore, Martinez cannot serve as cause to consider
Webster's procedurally defaulted claims for ineffective assistance of appellate counsel.

Ill
Webster's request for a COA is DENIED, his request to proceed in forma pauperis is GRANTED,2 and
the matter is dismissed.
Entered for the Court
Mary Beck Briscoe
Circuit Judge
End of Document

2 Given the confusion over the re-classification of the audiotape access claim and the district court's ultimate consideration of that claim
subject to Martinez, we cannot say that Webster's appeal—though ultimately without merit—was frivolous. Because Webster has
demonstrated an inability to pay, we grant his motion to proceed in forma pauperis. McIntosh v. U.S. Parole Comm’n. 115 F3d 809. 812-/3
nOth Cir. 1997).

Yvette Brown

Page 4 of 19

APPENDIX B

i'

<*»■

V

»

fj^' LexisNexis*
o Neutral
As of: August 31, 2021 3:48 PM Z

Webster v. Dauffenbaush
United States District Court for the District of Colorado
January 19, 2021, Decided; January 19, 2021, Filed
Civil Action No. 19-cv-03475-RM
Reporter
2021 U.S. Dist. LEXIS 97569 *; 2021 WL 2024909
RONALD WEBSTER Applicant, v. SCOTT DAUFFENBAUGH, Warden, and THE ATTORNEY
GENERAL OF THE STATE OF COLORADO, Respondents.
Prior History: Peoyle v. Webster, 2018 Colo. App. LEXIS 1508, 2018 WL 5295837 (Colo. Ct. Aw., Oct.
25. 2018)

Core Terms
trial counsel, modified, state court, deliberation, trial court, deadlock, defense counsel, questions,
interview, ineffective assistance, unanimous verdict, forensic, clearly established federal law, audiotape,
contends, mistrial, merits, objective standard of reasonableness, deficient performance, clarification,
adjudicated, consulted, reply, ineffective assistance of counsel claim, clear and convincing evidence, trial
counsel's performance, habeas corpus, make progress, circumstances, deferential
Counsel: [*1] Ronald Webster, Petitioner, Pro se, Canon City CO.
Judges: RAYMOND P. MOORE, United States District Judge.
Opinion by: RAYMOND P. MOORE

Opinion

ORDER ON APPLICATION FOR WRIT OF HABEAS CORPUS
The matter before the Court is an Application for a Writ of Habeas Corpus Pursuant to 28 U.S.C. ft 2254
filed pro se by Applicant. See ECF No. 1.

I. Background

Yvette Brown

Webster v. Dauffenbaugh
Applicant was convicted by a jury of one count of sexual assault on a child, one count of sexual assault on
a child-pattern of abuse, two counts of contributing to the delinquency of a minor, and one count of
distribution of a controlled substance.in Denver County District Court Case No. 10CR837. See ECF No.
11-8 at 3. On direct appeal, the Colorado Court of Appeals (CCA) affirmed the conviction. See State of
Colo. v. Webster, No. 16CA0808, 11 (Colo. App. Oct. 25, 2018); ECF No. 11-8 at 13. Applicant is
serving a term of twenty-four years to life in prison. See ECF No. 11-8 at 3. In the CCA's order affirming
Applicant’s conviction, the CCA summarized the underlying facts of the criminal case as follows:
Webster was arrested and charged for alleged sexual and drug-related offenses involving two
underage girls. He was accused of having engaged in sexual activity with the girls in exchange for
providing them with drugs.
Webster, No. 16CA0808 at 1; ECF No. 11-8 at [*2) 3.
Applicant filed the 28 U.S.C. £ 2254 Application, ECF No. 1, on December 9, 2019. On December 11,
2019, the magistrate judge directed Respondents to file a Pre-Answer Response and to address the
affirmative defenses of timeliness under 28 U.S.C. $ 2244(d), and exhaustion of state court remedies
under 28 U.S.C. § 2254(b)(1)(A). if Respondents intended to raise either or both in this action. See ECF
No. 5. Respondents filed a Pre-Answer Response, ECF No. 11, on January 29, 2020. Applicant filed a
Reply, ECF No. 14, on March 27, 2020.
The Court reviewed the Pre-Answer Response and the Reply and filed an Order for Answer in part on
June 22, 2020. See ECF No. 17. In the June 22 Order, the Court dismissed Claim 1(b) with prejudice as
procedurally defaulted in state court and barred from federal habeas review. See ECF No. 17 at 8. The
Court found that Claims 1(a) and 2(a) are exhausted and instructed Respondents they may include
additional arguments concerning the merits of Claim 2(b) in the Answer. Id. Respondents were directed to
file an answer in compliance with Rule 5 of the Rules Governing Section 2254 Cases that fully addresses
the merits of the remaining claims. Id. On August 21, 2020, Respondents filed an Answer, ECF No. 24.
After being granted an extension, see ECF No. 27, Applicant failed [*3] to reply to the Answer within the
time allowed. Nonetheless, on January 4, 2021, Applicant filed a pleading titled, "Narrative Summary of
the Evidence," ECF No. 28, which addresses the credibility of the DNA evidence.
The Court has reviewed the Application, ECF No. 1, the Answer, ECF No. 24, the state court record, ECF
No. 21, and the January 4, 2021, pleading, ECF No. 28, and has determined that the Application can be
resolved on the parties’ briefing without an evidentiary hearing. Under Rule 8(c) of the Rules Governins
Section 2254 Cases in the United States District Courts. only when an evidentiary hearing is warranted
must the judge appoint an attorney to represent an applicant who qualifies to have counsel appointed
under 18 U.S.C. $ 3006A.
The Application will be denied, and the action dismissed, for the following reasons.

II. Habeas Claims
The claims for review on the merits are as follows:

Yvette Brown

Page 6 of 19

Webster v. Dauffenbaugh
1) Claim l(a)-Ineffective assistance of trial counsel for failure to obtain DNA and child forensic
interviewing experts, and for not objecting to providing the jury with an audiotape (subject to
Martinez review), which violated Applicant's rights to due process, confrontation, and a fair trial;1
2) Claim 2(a)-Trial court error by giving improper responses to jury questions that suggested the
jury [*4] was having trouble reaching a unanimous verdict and was deadlocked, which violated due
process, a fair trial, and the right to an impartial jury; and
3) Claim 2(b)-Ineffective assistance of trial counsel based on the trial court error set forth in claims
2(a) (subject to Martinez review).
ECFNo. 1 at 4-9.

III. Legal Standards
Section 2254(d) provides that a writ of habeas corpus may not be issued with respect to any claim that was
adjudicated on the merits in state court, unless the state court adjudication:
(1) resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
The Court reviews claims of legal error and mixed questions of law and fact pursuant to 28 U.S.C. £
2254(d)(1). See Cook v. McKune, 323 F,3d 825, 830 (10th Civ. 2003). The threshold question pursuant to
£ 2254(d)(1) is whether Applicant seeks to apply a rule of law that was clearly established by the Supreme
Court at the time his conviction became final. See Williams v. Taylor, 529 U.S. 362. 590. 120 S. Ct. 1495.
146 L. Ed. 2d 389 (2000). The "review under 5 2254(d)(1) is limited to the record that was before the state
court that [*5] adjudicated the prisoner's claim on the merits." Cullen v. Pinholster, 563 U.S.170, 181.
131 S. Ct. 1388, 179 L Ed. 2d 557 (2011). "Finality occurs when direct state appeals have been exhausted
and a petition for writ of certiorari from [the Supreme Court] has become time barred or has been
disposed of." Greene v. Fisher. 565 U, S. 34, 39. 132 S. Ct. 38. 181 L. Ed. 2d 336 (2011) (citing Griffith v.
Kentucky. 479 U.S. 314. 321 n.6. 107 S. Ct. 70S. 93 L. Ed. 2d 649 (1987).
Clearly established federal law "refers to the holdings, as opposed to the dicta, of [the Supreme] Court's
decisions as of the time of the relevant state-court decision." Williams. 529 U.S. at 412. Furthermore,

1 The Court has reviewed (1) the state court record, (2) Applicant's opening brief on appeal in his Rule 35(c) postconviction motion; (3) the
CCA's order denying his ineffective assistance of counsel claims in his Rule 35(c) postconviction motion; (4) the 28 U.S.C. ^ 2254
application that initiated this action; and (5) Respondents' Answer, specifically pages 6-8. The Court also takes notice that Applicant has
failed to reply to Respondents’ Answer and challenge Respondents' characterization of Claim 1(a) and the treatment of Applicant's Jury
Access to Audiotape Interview claim pursuant to Martinez r. Rvan, 566 U.S. I. 132 S. Ct. 1309. 182 L. Ed. 2d 272 (2012). The Court,
therefore, has identified Claim 1(a) in this Order, as set forth above. The DNA confrontation violation claim, the res gestate evidence claim,
and the jury access to an audiotape interview claim were addressed by the Court in the June 22, 2020, Order and dismissed the claims with
prejudice as they pertain to ineffectiveness of appellate counsel. Now that Respondents have addressed these three claims in the posture of
ineffective assistance of trial counsel, and Applicant has not challenged Respondents' arguments, the Court finds no basis for construing
either the DNA confrontation violation claim or the res gestate evidence claim as ineffective assistance of trial counsel claims. Further, the
review of the audiotape interview claim pursuant to Martinez is proper and will be addressed in this Order.

Yvette Brown

Page 7 of 19

Webster v. Dauffenbaugh
clearly established law consists of Supreme Court holdings in cases where the facts are at least
closely-related or similar to the case sub judice. Although the legal rule at issue need not have had its
genesis in the closely-related or similar factual context, the Supreme Court must have expressly
extended the legal rule to that context.
House v. Hatch. 527 F.3d 1010. 1016 (10th Cir. 2008).
If there is no clearly established federal law, that is the end of the Court's inquiry pursuant to £ 2254(d)(1).
See id. at J0J8. If a clearly established rule of federal law is implicated, the Court must determine whether
the state court's decision was contrary to or an unreasonable application of that clearly established rule of
federal law. See Williams, 529 U.S. at 404-05.
A state-court decision is contrary to clearly established federal law if: (a) the state court applies a rule
that [*6] contradicts the governing law set forth in Supreme Court cases; or (b) the state court
confronts a set of facts that are materially indistinguishable from a decision of the Supreme Court and
nevertheless arrives at a result different from that precedent. Maynard v. Boone, 468 F.3d 665, 669
(JOth Cir. 2006) (internal quotation marks and brackets omitted) (quoting Williams, 529 U.S. at 405).
The word contrary is commonly understood to mean diametrically different, opposite in character or
nature, or mutually opposed. Williams, 529 U.S. at 405 (internal quotation marks and citation
omitted).
A state court decision involves an unreasonable application of clearly established federal law when it
identifies the correct governing legal rule from Supreme Court cases, but unreasonably applies it to
the facts. Id. at 407-08. Additionally, we have recognized that an unreasonable application may occur
if the state court either unreasonably extends, or unreasonably refuses to extend, a legal principle from
Supreme Court precedent to a new context where it should apply. Carter v. Ward, 347 F3d. 860, 864
OOth Cir. 2003) (quoting Valdez v. Ward, 219 F.3d 1222 1229-30 (JOth Cir. 2000) (brackets
omitted).
House, 527 F3d at 1018.
The Court's inquiry pursuant to the "unreasonable application" clause is an objective one. See Williams,
529 U.S. at 409-10. "[A] federal habeas court may not issue the writ simply because that court concludes
in its independent judgment that [*7] the relevant state-court decision applied clearly established federal
law erroneously or incorrectly. Rather that application must also be unreasonable." Id. at 411. "[A]
decision is 'objectively unreasonable' when most reasonable jurists exercising their independent judgment
would conclude the state court misapplied Supreme Court law." Maynard, 468 F.3d at 671. In addition,
evaluating whether a rule application was unreasonable requires considering the rule's specificity. The
more general the rule, the more leeway courts have in reaching outcomes in case-by-case
determinations. [I]t is not an unreasonable application of clearly established Federal law for a state
court to decline to apply a specific legal rule that has not been squarely established by [the Supreme]
Court.
Harrinston v. Richter, 562 U.S. 86, 101, 131 S. Ci. 770, 178 L. Ed. 2d 624 (2011) (internal quotation
marks and citation omitted). The Court "must determine what arguments or theories supported or, . . .
could have supported, the state court's decision" and then "it must ask whether it is possible fairminded
jurists could disagree that those arguments or theories are inconsistent with the holding in a prior decision
Yvette Brown

Page 8 of 19

Webster v. Dauffenbaugh
of [the Supreme] Court.” Id. at 102. ”[E]ven a strong case for relief does not mean the state court's
contrary conclusion was [*8] unreasonable.” Id. (citation omitted). ”Section 2254(d) reflects the view that
habeas corpus is a guard against extreme malfunctions in the state criminal justice systems, not a
substitute for ordinary error correction through appeal.” Id. at 102-03 (internal quotation marks and
citation omitted).
Under this standard, "only the most serious misapplications of Supreme Court precedent will be a basis
for relief under 22541' Maynard. 468 F. 3d at 671. Furthermore,
[a]s a condition for obtaining habeas corpus relief from a federal court, a state prisoner must show that
the state court's ruling on the claim being presented in federal court was so lacking in justification that
there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.
Richter. 562 U.S. at 103.
The Court reviews claims of factual errors pursuant to 28 U.S.C. $ 2254(d)(2). See Romano v. Gibson,
278 F.3d 1145, 1154 n.4 (10th Cir. 2002). Section 2254(d)(2) allows a court to grant a writ of habeas
corpus only if the state court decision was based on an unreasonable determination of the facts in light of
the evidence presented. Pursuant to £ 2254(e)(1), the Court must presume that the state court’s factual
determinations are correct, see Sumner v. Mata, 455 U.S. 591, 592-93, 102 S. Ct. 1303, 71 L. Ed. 2d 480
0982), and Applicant bears the burden of rebutting the presumption by clear and convincing evidence,
see Houchin v. Zavaras, 107 F.3d 1465. 1470 OOth Cir. 1997). "The standard is demanding [*9] but not
insatiable . .. [because] '[djeference does not by definition preclude relief.'" Miller-El v. Dretke, 545 U.S.
231 240. 125 S. Ct. 2317. 162 L. Ed. 2d 196 (2005) (quoting Miller-El v. Cockrell. 537 U.S. 322. 340.
123 S. Ct 1029, 154 L. Ed. 2d 931 (2003)).
A claim, however, may be adjudicated on the merits in state court even in the absence of a statement of
reasons by the state court for rejecting the claim. Richter. 562 U.S. at 98. ("[Determining whether a state
court's decision resulted from an unreasonable legal or factual conclusion does not require that there be an
opinion from the state court explaining the state court's reasoning."). Furthermore, "[w]hen a federal claim
has been presented to a state court and the state court has denied relief, it may be presumed that the state
court adjudicated the claim on the merits in the absence of any indication or state-law procedural
principles to the contrary.” Id. at 99.
In other words, the Court ”owe[s] deference to the state court's result, even if its reasoning is not expressly
stated." Avcoxv. Lytle, 196 F.3d 1174. 1177 OOth Cir. 1999). Therefore, the Court "must uphold the state
court's summary decision unless [its] independent review of the record and pertinent federal law persuades
[it] that [the] result contravenes or unreasonably applies clearly established federal law, or is based on an
unreasonable determination of the facts in light of the evidence presented.” [*10] Id. at 1178. "This
'independent review' should be distinguished from a full de novo review of the [applicant’s] claims.” Id.
(citation omitted).
Likewise, the Court applies the AEDPA (Antiterrorism and Effective Death Penalty Act) deferential
standard of review when a state court adjudicates a federal issue relying solely on a state standard that is
at least as favorable to the applicant as the federal standard. See Harris v. Powell, 411 F.3d 1189, 1196
OOth Cir. 2005). If a claim was not adjudicated on the merits in state court, and if the claim also is not

Yvette Brown

Page 9 of 19

Webster v. Dauffenbaugh

procedurally barred, the Court must review the claim de novo and the ft 2254(d)(1) deferential standard
does not apply. See Gipson v. Jordan, 376 F.3d 1193, JJ96 (10th Cir. 2004).

IV. Analysis
A. Ineffective Assistance of Counsel
Claim 1(a) and Claim 2(b) assert ineffective assistance of trial counsel.
It was clearly established when Applicant was convicted that a defendant has a Sixth Amendment right to
the effective assistance of counsel. See Strickland v. Washington, 466 U.S. 668, 104 S. Ct. 2052, 80 L, Ed.
2d 674 (1984). Ineffective assistance of counsel claims are mixed questions of law and fact. See id. at 698.
To establish that counsel was ineffective, Applicant must demonstrate both that counsel’s performance fell
below an objective standard of reasonableness and that counsel's deficient performance resulted in
prejudice to his defense. See id. at 687. "Judicial scrutiny of counsel's performance must be highly [*11]
deferential." Id. at 689. "A court considering a claim of ineffective assistance must apply a strong
presumption that counsel's representation was within a wide range of reasonable professional assistance."
United States v, Rushin, 642 F.Sd 1299, 1306 (10th Cir. 2011) (citations and internal quotation marks
omitted). It is an applicant's burden to overcome this presumption by showing that the alleged errors were
not sound strategy under the circumstances, see Strickland. 466 U.S. at 689. and that the errors were so
serious that "counsel was not functioning as the counsel guaranteed the defendant by the Sixth
AmendmentRushin. 642 F.3d at 1307 (quoting Richter. 562 U.S. at 104) (emphasis, citation, and
internal quotation marks omitted). Applicant bears the burden of rebutting this presumption by clear and
convincing evidence. See 28 U.S.C. ft 2254(e)(1). An applicant must show counsel failed to act
"reasonably] considering all the circumstances." Cullen. 563 U.S. at 189 (quoting Strickland. 466 U.S. at
688).
If Applicant fails to satisfy either prong of the Strickland test, the ineffective assistance of counsel claim
must be dismissed. See Strickland. 466 U.S. at 697. Pursuant to ft 2254(e)(1), the factual findings of the
state courts are presumed correct. And, conclusory allegations that counsel was ineffective are not
sufficient to warrant habeas relief. See Humphreys v. Gibson. 261 F.3d 1016, 1022 n.2 (10th Cir. 2001).
Under the prejudice prong, an applicant must establish "a reasonable probability that, but [*12] for
counsel's unprofessional errors, the result of the proceeding would have been different." Strickland. 466
. U.S. at 694. "A reasonable probability is a probability sufficient to undermine confidence in the outcome."
Id. In assessing prejudice under Strickland, the question is whether it is reasonably likely the result would
have been different. Richter, 562 U.S. at 111. "The likelihood of a different result must be substantial, not
just conceivable." Id. at 112 (citing Strickland. 466 U.S. at 693.)
Furthermore, under AEDPA, "[t]he pivotal question is whether the state court's application of the
Strickland standard was unreasonable. This is different from asking whether trial counsel's performance
fell below Strickland's standard," which is the question asked "on direct review of a criminal conviction in
a United States district court." Richter, 562 U.S. at 101. When ft 2254(d) applies, the question is not
whether counsel's actions were reasonable. The question is "whether there is any reasonable argument that
counsel satisfied Strickland's deferential standard." Id. at 105.

Yvette Brown

Page 10 of 19

Webster v. Dauffenbaugh
1. Claim 1 (a)/ Ineffective assistance of trial counsel in failing to use experts in DNA analysis and child
forensic interviewing
In Claim 1(a), Applicant contends there is no "actual evidence" that trial counsel consulted with an expert.
ECF [*13] No. 1 at 8. And without actual evidence that trial counsel consulted with a DNA expert,
Applicant contends that the CCA wrongly determined trial counsel's decision to forego the use of a DNA
expert at trial was a reasonable strategic decision. Id. Applicant further contends that even if trial counsel
had consulted a DNA expert there were several DNA related factors, set forth in the postconviction
opening brief on appeal, which were not rebutted by a defense DNA expert at trial and resulted in
improper influence on, and confusion of, the jury. Id.
The CCA addressed the ineffective assistance of trial counsel as follows:
Webster contends that the postconviction court erred by denying his ineffective assistance of trial
counsel claims, alleging that trial counsel should have consulted with and/or obtained the testimony of
experts in DNA analysis and in child forensic interviewing. We disagree.
Counsel has a duty to conduct a reasonable investigation, meaning an investigation "that is 'sufficient
to reveal potential defenses and the facts relevant to guilt.'" Newmiller If 45 (quoting Davis v. People.
871 P.2d 769, 773 (Colo. 1994)). Any decision that was strategic and adequately informed following
such an investigation creates a "virtually unchallengeable" [*14] presumption that counsel's decision
was objectively reasonable. Id. at IT 46 (quoting Strickland. 466 U.S. at 690). The decision whether to
call a particular witness or expert is a strategic decision. See Davis, 871 P.2d at 773: People v.
Bradley, 25 P.3d 1271, 1275 (Colo. Add. 2001),
The victims here were approximately fourteen years old during the relevant time. DNA testing and
analysis was performed on underwear that had allegedly belonged to them and was found on
Webster's property. Thus, their testimony and the results from the DNA testing were important pieces
of evidence. [Note 1: Only one of the victims testified at trial.] The other ran away before trial and
was unavailable to testify.]
First, regarding a DNA expert, the record reflects that defense counsel consulted with a DNA expert
before trial. Thus, we reject that portion of Webster’s contention. And, having reviewed the record, we
also reject Webster's contention that defense counsel's decision not to call a DNA expert to testify
constituted deficient performance.
Counsel thoroughly questioned the police officer who had recovered the items containing the DNA
evidence from Webster's apartment and the prosecutor's scientific experts. This questioning shows a
reasonable understanding of DNA procedures and DNA testing. Counsel used technical [*15] terms;
questioned the witnesses about possible errors in collecting, testing, and analyzing the evidence; and
referenced scientific articles relevant to the issues in this case. There is nothing in the record that
indicates that the DNA expert who was consulted, or any other expert, intended to refute the
testimony of the prosecution witnesses.
Based on our review, we conclude that defense counsel's performance did not fall below an objective
standard of reasonableness. See Newmiller, ^ 43, 47; Aguilar, 112.
Second, as to whether defense counsel should have called a child forensic interview expert to testify,
we again note that we have reviewed the record. Counsel thoroughly cross-examined the victim about
inconsistencies in her story, highlighting possible credibility concerns. Reviewing this conduct in
Yvette Brown

Page 11 of 19

Webster v. Dauffenbaugh

hindsight, we cannot conclude that the decision to attack the victim’s credibility through crossexamination rather than through a child forensic interview expert fell below an objective standard of
reasonableness. See Davis, 871 P.2d at 773: NewmiUer, 1]47.
Accordingly, we conclude that trial counsel was not ineffective for failing to call a DNA or child
forensic interview expert to testify.
Webster, No. 16CA0808, at 9-11; ECFNo. 11-8 at 11-13.
First, [*16] the Court addresses trial counsel’s performance. As stated above, trial counsel's performance
must fall below an objective standard of reasonableness and the deficient performance must result in
prejudice to Applicant's defense. See Strickland, 466 U.S. at 687. Judicial scrutiny of counsel’s
performance is highly deferential, id, at 689, and there must be a strong presumption that counsel's
representation was within a wide range of reasonable professional assistance, Rushin, 642 F,3d at 1306.
Applicant must overcome this presumption by showing errors were not sound strategy under the
circumstances, see Strickland. 466 U.S. at 689. and the errors were so serious that counsel violated the
Sixth Amendment. Rushin. 642 F.3d at 1307. Applicant bears the burden of rebutting this presumption by
clear and convincing evidence. See 28 U.S.C. $ 2254(e)(1): see Houchin, 107F,3d at 1470.
As stated above, "review under ft 2254(d)(1) is limited to the record that was before the state court that
adjudicated the prisoner's claim on the merits." Cullen, 563 U.S, atJ8J. Also, stated above, pursuant to §_
2254(e)(1). the Court must presume that the state court's factual determinations are correct, see Sumner,
455 U.S. at 592-93.
The Court has reviewed the pretrial and trial transcripts and finds the following:
First, Applicant’s claim that trial counsel never consulted an DNA expert is belied by the trial transcript.
On more than one occasion, trial [*17] counsel refers to the DNA expert he had obtained and who was
reviewing the DNA evidence to assist counsel in Applicant’s case. See Crim. Case No. 10CR837, July 8,
2011, Mot. Hr'g Tr. at 4 (trial counsel refers to his expert); 6-9 (trial counsel estimates time his expert
would need to review a June 29 report and concedes he has not endorsed a DNA expert, but confirms he
was "relying heavily upon [his] expert to interpret" results).
Second, trial counsel cross-examined Investigator Goodfellow at a preliminary hearing, see Dec. 2, 2010,
P.M. Pretrial Hr’g at 21-41; and cross-examined Mr. Goodfellow at trial, see July 12, 2011, Trial Tr. at
166-82. Mr. Goodfellow is a criminal investigator for the Denver District Attorney's Office. July 12,
2011, Trial Tr. at 154. Trial counsel conducted a pretrial examination of Ms. Berdine, see July 11, 2011,
Pretrial Tr. at 19-35, and cross examined her during trial, see July 15, 2011, P.M. Trial Tr. at 115-31. Ms.
Berdine is the supervisor for ten forensic scientists at the Denver Police Department Crime Laboratory. Id.
at 64. The questions trial counsel posed to Investigator Goodfellow and to Ms. Berdine, on all occasions,
illustrate his thoroughness [*18] and understanding of DNA testing and procedures.
Third, the same is clear regarding trial counsel's decision not to call a child forensic interview expert and
to rely on a cross examination of the victim. The Court has reviewed trial counsel's cross examination of
B. W., the only victim available at trial. See July 13, 2011, Trial Tr. at 208-40 and 244-45. The transcript
supports the CCA's finding that trial counsel "thoroughly cross-examined the victim about inconsistencies
in her story, highlighting possible credibility concerns."

Yvette Brown

Page 12 of 19

Webster v. Dauffenbaugh

Finally, Applicant fails to set forth what either a DNA or a child forensic interview expert would have
attested to and how such testimony would have supported either a finding that trial counsel’s performance
fell below an objective standard of reasonableness and the deficient performance resulted in prejudice to
Applicant's defense.
Applicant, therefore, fails to meet the burden of rebutting the presumption by clear and convincing
evidence that trial counsel was effective with respect to either obtaining or utilizing DNA and child
forensic interviewing experts. Based on these findings, Applicant does not establish that there was a
reasonable probability [*19] that the result of the trial would have been different had experts testified. For
the reasons stated above, the CCA's decision regarding this claim did not result in a decision that was
contrary to, or involve an unreasonable application of, clearly established federal law, as determined by
the Supreme Court of the United States, and did not result in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding. Claim 1(a) lacks
merit.
2. Claims l(a )and 2(b) Ineffective Assistance of Counsel Regarding Audio Tape and Trial Court Error/
Martinez Review
In Martinez v. Ryan, the Supreme Court held:
Where, under state law, claims of ineffective assistance of trial counsel must be raised in an initialreview collateral proceeding, a procedural default will not bar a federal habeas court from hearing a
substantial claim of ineffective assistance at trial if, in the initial-review collateral proceeding, there
was no counsel or counsel in that proceeding was ineffective.
566 US. at 17. The Tenth Circuit has held that Martinez applies to Colorado cases, because there is an
"expressed preference" for defendants to raise ineffective assistance [*20] of trial counsel claims in
collateral review proceedings in Colorado. Linzv v. Faulk, 602 F. App'x 701, 702 n.3 (10th Cir. 2015).
Applicant acted pro se in his initial collateral proceeding addressing his ineffective assistance of counsel
claims. Having met three of the four requirements set forth in Martinez, Applicant is left with establishing
the two defaulted ineffective assistance of counsel claims are substantial.

i. Claim 1 (a)/Ineffective Assistance of Counsel Based on Jury Access to Audiotape Interview
Applicant asserts that trial counsel was ineffective in agreeing with the court to give the jury access to an
audio tape of a police interview with B.W., a victim in Applicant's case. ECF No. 1 at 15. Applicant
further asserts that the jury was given unfettered and unsupervised access to the audio and without a
"limiting or cautionary instruction about the method of use or the weight or emphasis to be put on the
evidence." Id. Finally, Applicant contends that, had he been "afforded the benefit of counsel on his initial
review collateral proceeding, this claim would have been put before the court on proper procedural
theories of ineffectiveness against... trial counsel...." Id.
Applicant may disagree with the strategy trial counsel [*21] chose, but his claims do not support a
finding of deficient performance. As stated above, trial counsel’s performances must fall below an
objective standard of reasonableness and the deficient performance must result in prejudice to Applicant's
defense. See Strickland, 466 U.S. at 687. Judicial scrutiny of counsel's performance is highly deferential,
Yvette Brown

Page 13 of 19

Webster v. Dauffenbaugh
id. at 689. and there must be a strong presumption that counsel's representation was within a wide range
of reasonable professional assistance, Rushin, 642 F.Sd at 1306. Applicant must overcome this
presumption by showing errors were not sound strategy under the circumstances, see Strickland, 466 U.S.
at 689. and the errors were so serious that counsel violated the Sixth Amendment. Rushin. 642 F.3d at
1S07. Applicant bears the burden of rebutting this presumption by clear and convincing evidence. See 28
U.S.C. $ 2254(e)(1).
The colloquy between the trial court, the prosecution, and trial counsel regarding the providing of the
audiotape to the jury is as follows:
THE COURT: We need to call the trial. It’s 10CR837. People versus Webster. Ms. Melnick's here for
the People. Mr. Stuart and Mr. Webster are present. The jury has asked to review the audiotape of Ms.
Woodson. People have a position on that?
MS. MELNICK: No, Your Honor.
THE COURT: Mr. Stuart?
MR. STUART: We request you send it back. [*22]
THE COURT: All right. There's some case law that suggests that there's some findings I'm supposed
to make. I don't know if that’s required, if there's only an objection, but I think it would be helpful to
the jury. I don't think it's overly prejudicial, and I think that in the light of all the other evidence, it's
not—it’s not overwhelming or highlighting any other piece of evidence. Any other record you think I
need to make, Ms. Melnick?
MS. MELNICK: No.
THE COURT: Mr. Stuart?
MR. STUART: No, thank you
THE COURT: All right. We'll give it to them and they can listen to it unfettered and unsupervised.
Ms. Melnick?
MS. MELNICK: I agree with that, Your Honor.
THE COURT: Mr. Stuart?
MR. STUART: Agreed.
THE COURT: Okay.
July 21, 2011, A.M. Trial Tr. at 3-4.
Applicant's claim is not substantial. It is clear from trial counsel’s cross examination of B. W., discussed
above, and of trial counsel's closing arguments, see July 18, 2011, Trial Tr. at 68-74, 82, the use of the
audiotape was strategic. Trial counsel used the audiotape to support the defense strategy that B.W. was
not credible. Furthermore, Applicant fails to assert what was on the audiotape that would not support trial
counsel's defense strategy (*23] and would have had "the potential to be given undue weight or emphasis
by the jury," ECF No. 1 at 15, as he suggests in the Application. Trial counsel's performance does not fall
below an objective standard of reasonableness and without such deficient performance Applicant is not
prejudiced. The audiotape claim, therefore, is not substantial under Martinez.
Accordingly, the audiotape claim is procedurally defaulted and barred from federal habeas relief.

ii.. Claim 2(b)/Ineffective Assistance of Counsel Based on Trial Court Error

Yvette Brown

Page 14 of 19

Webster v. Dauffenbaugh
In Claim 2(b), Applicant argues that trial counsel "should have continued to demand an instruction on the
propriety of a deadlock," not doing so was ineffective assistance of counsel, and default should be
excused for failure to raise the claim in Applicant’s Colo. R. Crim. P. 35(c). EOF No. 1 at 20.
Based on the Court’s finding below in addressing Applicant's trial court error claim, Claim 2(b), an
ineffective assistance of counsel claim for not demanding an instruction on the propriety of a deadlock, is
not substantial. Applicant fails to set forth any law that supports a finding that the failure to give an Allen
charge is a constitutional error. Further, based on the trial court record, [*24] July 20, 2011, Trial Tr. at 614, nothing in the record indicates the jury was at a deadlock. It is clear that trial counsel’s performance
does not fall below an objective standard of reasonableness and without such deficient performance
Applicant is not prejudiced. The failure by trial counsel not to insist on a deadlock instruction, or modified
Allen instruction, therefore, is not substantial under Martinez.
Accordingly, ineffective assistance of counsel with respect to failure to insist on deadlock or a modified
Allen instruction is procedurally defaulted and barred from federal habeas relief.
B. Denial of Due Process and Impartial Jury
In Claim 2(a), Applicant asserts the trial court denied defense counsel’s two requests, that the court (1)
give the jury a modified Allen instruction; and (2) advise the jury of the option to not return a verdict,
which results in a mistrial. ECF No. 1 at 18. Applicant contends that the responses to the jury’s questions
were more than mere comments or observations, because the court (1) told the jury that to reach a verdict
all twelve votes must be the same for a verdict of either guilty or not guilty; and (2) did not inform the
jury that a no verdict [*25] was an option. Id. Applicant further contends that the chain of events, denied
him of his "protected right to a hung jury." Id. at 19.
Applicant also asserts that a finding of invited or waived error is erroneous. ECF No. 1 at 20. Applicant
contends that trial counsel did not abandon his objections when he agreed that the court's responses to the
jury's questions were appropriate without a modified Allen instruction. Id.
The CCA addressed the denial of due process and impartial jury claims as follows:
The single issue defendant raises on appeal arises from the trial court's answers to jury questions
submitted during deliberations. After closing arguments, the jury deliberated for approximately fifteen
minutes and was then excused for the evening to return the next morning. During the next day’s
deliberations, the jury submitted several questions, two of which the court labeled Questions 3A and
3B.
Question 3 A asked, "Does 'unanimous' mean all 12 individual votes to be the' same? If we pick ten
guilty versus two not guilty, is that not guilty?" The court proposed a possible reply stating, in part,
that ”[t]o reach a verdict on a particular count, all 12 votes must be the same" and referencing [*26]
another instruction that provided the jury must reach a unanimous verdict on each count. Neither the
People nor defense counsel objected, and the instruction was given as proposed by the court.
Question 3B read, "When would we be deadlocked on a charge?" On hearing this question, defense
counsel remarked, "Judge, I think some sort of version of the modified Allen instruction might be
beneficial." [footnote omitted]. See Allen v. People. 660 P.2d 896 (Colo. 1983). The court stated that
it was not ready to give a mod\i\ed-Allen instruction because the deliberations had not been lengthy
given the seven-day trial and the number of counts. The court concluded: "As I said, I think a
Yvette Brown

Page 15 of 19

Webster v. Dauffenbaugh
modified Allen instruction is premature .... I don't think we’re there yet. I am just going to tell them
to please continue to deliberate on any?on any count for which you have not reached a verdict." The
People agreed that the court's proposed response was "appropriate," and defense counsel said, "Okay."
The court instructed the jury: "Please continue with your deliberations on any counts for which you
have not reached a verdict."
Following a recess, the jury submitted two more questions, which the court labeled Question 4, Parts
1 and 2. Question 1*27] 4, Part 1 read, "Does a verdict of guilty or not guilty mean 12 to zero vote?"
Both the People and defense counsel agreed that the answer to that question would be "yes."
Question 4, Part 2 asked, "If one juror said not guilty and eleven say guilty, do we keep deliberating
or are we not guilty because we cannot agree? Sorry again for asking again." Both the People and the
defense counsel initially suggested giving a modified-^4//e« instruction in response to the second
question. On reflection, however, the People and the court concluded that a modified-Allen instruction
would not answer the question, which was, as the People described it, "[I]f it is 11 guilty, one not
guilty, does that then mean it's not guilty."
Defense counsel then said, "I agree that's the question, Judge, but I guess the second part is asking if
they are deadlocked, which it sounds like the second part says they are deadlocked, what do they do.
That's the part I think the modified Allen should be for."
After further discussion, the court concluded that the question did not imply that the jury was at an
impasse, and, absent that implication, it did not believe a modified-^//e« instruction was appropriate.
Rather, the [*28] court suggested that under People v. Lewis, 676 P.2d 682 (Colo. 1984). superseded
by statute as stated in People v. Richardson, 184 P.Sd 755 (Colo. 2008). he should first ask the jury
whether there was a likelihood of progress towards a unanimous verdict upon further deliberation.
Defendant’s counsel responded that any response should inform the jurors that a mistrial would be
declared if they could not reach a unanimous verdict. The court responded that it was "a little too
early for that." The court advised counsel it would answer the question by stating that a verdict
requires all twelve jurors to vote either guilty or not guilty, and that a vote of less than twelve meant
that the jury had not reached a verdict of guilty or not guilty. It would also ask them whether there
was a likelihood of progress toward a unanimous verdict upon further deliberation. Both the People
and defense counsel stated that they had "no objection" to that response.
The jury responded to the court's question of whether there was likelihood of progress toward a
unanimous verdict upon further deliberation by stating, "No; we are making progress. Just needed
clarification." The court interpreted that response: "So those two parts of that sentence are a little
inconsistent based on the question that [*29J I asked them, but I'm going to take that to mean that
they are making progress, and they just needed clarification." Again, the People made no objection,
and defense counsel replied, "Okay."
After asking two more questions unrelated to the definition of a deadlock, the jury found defendant
guilty of the charges listed above.
II. Analysis
Defendant contends that the trial court reversibly erred when it responded to two of the jury questions
Questions 3B and 4, Part 2 — regarding the definition of a deadlock during deliberations by failing to
Yvette Brown

Page 16 of 19

Webster v. Dauffenbaugh

give a modified-/I//ew instruction containing a mistrial advisement and to inform the jury that it had
the option not to return any verdict.
We disagree that reversal is required for two reasons. First, we conclude defense counsel invited the
court's responses, or waived any objections to the trial court's responses to jury questions. Second,
whether or not there was invited error or waiver, the trial court did not err because the answers to the
jury questions met the appropriate criteria in this situation.

B. Modified-^4Instruction and Mistrial Advisement
Moreover, the trial court did not abuse its discretion in not giving the jury a modified- [*30J Allen
instruction and mistrial advisement.
Whether or not to give a modified-Allen charge before declaring a mistrial is within the trial court's
discretion. Id. at 1012. On September 22, 1971, the Chief Justice of the Colorado Supreme Court
issued a directive forbidding the use of the Allen charge and prescribing a new modified-Allen
instruction.
The modified-^//ew instruction may be given only in narrowly prescribed circumstances. Id. Before
giving the instruction, the trial court must first determine whether there is likelihood of progress
toward a unanimous verdict upon further deliberation. ld. \ see also Lewis. 676 P.2d at 689 (holding
that before giving the modified-^ lien instruction, the trial court should ask the jury whether there is a
likelihood of unanimous progress upon further deliberation).
Here, the trial court did not abuse its discretion by not giving the jury a modified-^//e« instruction and
mistrial advisement. The court properly inquired first as to whether the jury was making progress
toward a unanimous verdict before giving a modified-yf/ferc instruction. See Schwartz, 678 P.2d at
1012; see also Lewis. 676 P.2d at 689. The jury replied to the court's query, "No; we are making
progress. Just needed clarification."
Noting that parts of the reply [*31] were "a little inconsistent," the trial court determined that the jury
was merely asking for clarification and not informing the court that it had reached an impasse.
Because the jury explicitly said that it was "making progress" and "[j]ust needed clarification" of legal
terminology, the trial court did not abuse its discretion in concluding that the jury's questions
regarding a possible deadlock were hypothetical, that the jury had not yet reached a deadlock, and that
therefore a modified-Allen instruction was premature.
Furthermore, in the recent decision in Gibbons v. People. 328 P.3d 95. 2014 CO 67. the supreme
court concluded that even if the court exercises its discretion to give a modified-^4//e« instruction, it is
not required to give a mistrial advisement, as defendant urges.
Webster, No. 11CA2278 at 1-6, 8-10; ECF No. 11-4 at 3-8, 10-12.
The CCA's decision is based on a detailed analysis of the trial court record. This Court has reviewed the
transcript, specifically the colloquy between the trial court, the jury, the prosecution, and trial counsel and
finds Claim 2(a) lacks merit for the following reasons.
Yvette Brown

Page 17 of 19

Webster v. Dauffenbaugh
It was clearly established at the time Applicant was convicted that a criminal defendant ’’being tried by a
jury [*32] is entitled to the uncoerced verdict of that body." Lowenfield v. Phelps, 484 U.S. 231, 241, 108
S. Ct. 546, 98 L. Ed. 2d 568 (1988). Allen instructions are derived from a supplementary jury instruction
approved by the Supreme Court in Allen v. United States. 164 U.S. 492, 17 S. Ct. 154, 41 L. Ed. 528
(1896). The instructions encourage a divided jury to agree on a verdict so as to avoid a mistrial. See
Gilbert v, Mulhn, 302 F.3d 1166, 1173 (10th Cir. 2002). Nonetheless, an Allen charge may violate a
defendant’s right to due process and Sixth Amendment rights to an impartial jury trial and to a unanimous
verdict if it imposes such pressure on the jury such that the accuracy and integrity of their verdict becomes
uncertain. See United States v. McElhiney, 275 F.3d 928, 937 n.4, 940 (10th Cir. 2001).
Although an Allen charge can be unconstitutionally coercive under some circumstances, see United States
v. Zabriskie, 415 F.3d 1139, 1147-48 (10th Cir. 2005). Applicant does not cite to any case where a court
held that the failure to give an Allen charge is a constitutional error. See White v. Medina, 464 F. App'x
715, 719 ( 10th Cir. 2012). Moreover, there was no jury deadlock, fundamental misunderstanding of the
law, or any indication of impropriety. The jury inquiries were nothing more than requests for clarification.
The telling part of the colloquy between the trial court and the jury is when the court asked the jury
whether there was a likelihood of progress toward a unanimous verdict upon further deliberation and the
jury responded, "No; we are making process. Just needed clarification." See [*33] July 20, 2011, Trial Tr.
at 13. Even though the first part of the jury's response is "no," and somewhat inconsistent, it is clear from
the second part of the response that the jury was making progress in their deliberation. Accordingly, the
trial court was well within its discretion to not use a modified Allen instruction.
Based on this Court’s finding that the trial court was well within its discretion to not use a modified Allen
instruction, this Court finds no need to address whether trial counsel invited the court error by acquiescing
in the trial court's decision not to use the instruction.
Applicant has failed to present clear and convincing evidence that the trial court’s decision not to give the
jury a modified Allen instruction so undermined the fundamental fairness of the trial itself as to cast
serious doubt on the reliability of the judgment of conviction. The CCA's decision regarding Claim 2(a) is
not contrary to or an unreasonable application of clearly established rule of federal law or an unreasonable
determination of the facts in light of the evidence presented to the state court. Claim 2(a), therefore, lacks
merit.

V. Orders
Accordingly, it is
ORDERED that the Application [*34] for a Writ of Habeas Corpus Pursuant to 28 U.S.C. ' 2254. ECF
No. 1, is dismissed with prejudice. It is
FURTHER ORDERED that the issuance of a Certificate of Appealability pursuant to 28 U.S.C. § 2253(c)
is denied. Applicant has not made a substantial showing of the denial of a constitutional right such that
reasonable jurists could disagree as to the disposition of his Application pursuant to the standards of Slack
v. McDaniel 529 U.S. 473. 484. 120 S. Ct, 1595. 146 L, Ed. 2d 542 (2000). See 28 U.S.C. $ 2253(c)(2). It
is

Yvette Brown

Page 18 of 19

Webster v. Dauffenbaugh
FURTHER ORDERED that leave to proceed in forma pauperis on appeal is denied. The Court certifies
pursuant to 28 U.S.C.
1915(a)(3) that any appeal from this Order is not taken in good faith, and,
therefore, in forma pauperis status is denied for the purpose of appeal. See Coppedsev. United States, 369
U.S. 438, 82 S. Ct. 917, 8 L, Ed, 2d 21 0962). If Applicant files a notice of appeal, he must also pay the
full $505 appellate filing fee or file a motion to proceed in forma pauperis in the United States Court of
Appeals for the Tenth Circuit within thirty days in accordance with Fed. R. App. P. 24.
DATED this 19th day of January, 2021.
BY THE COURT:
/s/ Raymond P. Moore
RAYMOND P. MOORE
United States District Judge

End ol' Document

Yvette Brown

Page 19 of 19

